                                                                                   A
                                                 Office of Inspector General
                                            Atlanta Field Office - Audit Division
                                                 3003 Chamblee Tucker Rd
                                                     Atlanta, GA 30341


                                               December 1,2003


MEMORANDUM

TO:               Kenneth 0 . Burris, Jr


FROM:
                   Field Office Direct&

SUBJECT:           North Carolina National Guard
                   Raleigh, North Carolina
                   FEMA Disaster No. 1292-DR-NC
                   Audit Report No. DA-07-04

The Office of Inspector General (OIG) audited public assistance funds awarded to the
North Carolina National Guard. The objective of the audit was to determine whether the
National Guard accounted for and expended FEMA funds in accordance with federal
regulations and FEMA guidelines.

The Natioqal Guard received an award of $1 1.4 million from the North Carolina
Emergency Management Agency, a FEM$ grantee, to provide emergency protective
measures as a result of Hurricane Floyd in September 1999. The award provided 90
percent FEMA funding for 3 projects, as follows:

                              Project              Amount        Amount
                              Number               Awarded       Claimed
                              688                 $ 5,000,000 $ 5,000,000
                              3878                  5,406,980    5,406,980
                              3882                     984.258      984,258
                              Total               $1 1,391,238 $1 1,391.238

The audit covered the period September 1999 to September 200 1. During this 'period, the
National Guard received $107252,114 of FEMA funds.



Notice: This report remains the property of the DHS Office of Inspector General (DHS-016) at all times and, as such, is not
to be publicly disclosed without the express permission of the DHS-OIG. Requests for copies of this report should be
immediately forwarded to the DHS Office of Counsel to the Inspector General to ensure strict compliance with all applicable
disclosure laws.
The OIG performed the audit under the authority of the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. The audit
included tests of the National Guard's accounting records, a judgmental sample of
expenditures, and other auditing procedures considered necessary under the
circumstances.

                                 RESULTS OF AUDIT

Except for improper claims for administrative costs of $65,427 (FEMA share $58,884),
the National Guard properly accounted for and expended FEMA funds. Under the
Stafford Act, the National Guard automatically received from FEMA an administrative
allowance based on a statutory formula to cover costs associated with requesting,
obtaining, and administering FEMA awards. Federal regulation (44 CFR 206.228) limits
funding for administrative costs to that allowance. However, the Guard's claim under
Project 3882 included $65,427 of equipment and labor charges for use of helicopters to
facilitate damage assessments.

We question these charges because damage assessments are conducted for the purpose of
documenting the need for and requesting financial assistance. Therefore, the costs for
such activities are covered by the statutory administrative allowance and should not have
been claimed as a separate change under the project.


                                 RECOMMENDATION

 The OIG recommends that the Regional Director, in coordination with the grantee,
 disallow the $65,427 of questioned c o s t s , ~


           DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

 The results of the audit were discussed with FEMA officials on August 5,2003, and with
 grantee and Guard officials on August 14, 2003. Guard officials withheld comment
 pending receipt of the report.

 Please advise the Atlanta Field Office - Audit Division by February 1,2004, of the
 actions taken to implement the OIG recommendation. Should you have any questions
 concerning this report, please contact me or David Kimble at (770) 220-5242.
